                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL

     .                                                   OFFICE OF INVESTIGATIONS

      o                                          CLOSEOUT MEMORANDUM

    Case Number: 1-03010004                                                                      Page 1 of 1



             On January 27,2003, information was forwarded to the Office of Inspector General regarding
             possible fraud in reference to a current Grant ~ r o ~ o s a lThis
                                                                           ' . information was received from one
             of the prospective reviewers2 of the Proposal. The complainant indictaed that he could not
             conduct a review due to conflict of interest issues that he had. He added that the proposal was
             nearly identical to work he had been performing for the past 5 years and had also recently been
             awarded a grant from the U.S. Army to continue his research in the same area.

             The complainant was contacted and stated that the reason he had questioned reviewing the
             proposal was that he did not want to be accused of having a conflict because of his similar
             research. During the interview, the complainant did not indicate that he felt his research or ideas
             were being compromised or used in the NSF Proposal.

             Copies of both the NSF Proposal and the DOD Proposal, submitted by the complainant, were
             forwarded to an Investigative scientist? for review. The results of that review indicated that
             while both proposals were in the same area of development and there were overlaps in the
             approaches used, no textual link between the two proposals was identified.

             Based on the information contained above, it is the conclusion of this investigator that the
             complainant initially expressed concern because of a fear of being accused of being biased in his
             review because of his competing work. Furthermore, at no time during this investigation did the
             complainant accuse anyone of stealing his ideas. Based on this information and the results of the
             Investigative Scientist's review of both proposals, there is no evidence of any wrong doing on the
             part of the subject submitting the NSF Proposal. The Program Officer has been notified of the
             outcome of our investigative findings.

1            Accordingly, this case is closed.




I        Sign / date
                              Investigator              Attorney                Supervisor                   AIGI



                                                                                               NSF OIG Form 2 (1 1/02)
